  IMPROPER PAYMENTS IDENTIFIED IN
FAA'S AIRPORT IMPROVEMENT PROGRAM

       Federal Aviation Administration
         Report Number: FI-2011-023
         Date Issued: December 1, 2010
           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Improper Payments in the               Date:    December 1, 2010
           Airport Improvement Program, FAA
           Report Number FI-2011-023

  From:    Lou E. Dixon                                          Reply to
                                                                 Attn. of:   JA–20
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Assistant Administrator for Financial Services/
            Chief Financial Officer, FAA


           In fiscal year 2008, the Federal Aviation Administration (FAA) provided over
           $4 billion dollars to more than 1,500 Airport Improvement Program (AIP)
           grantees to enhance safety, capacity, and security at airports that are considered
           significant to national air transportation. In addition to the fiscal year 2009
           $3.5 billion appropriation, AIP received an additional $1.1 billion under the
           American Recovery and Reinvestment Act of 2009 (ARRA). The Department of
           Transportation (DOT) has determined that AIP is susceptible to improper
           payments, such as payments for ineligible services or to ineligible recipients,
           duplicate and incorrect payment amounts, and payments based upon insufficient
           supporting documentation. The infusion of Federal dollars under ARRA increases
           the amount of AIP dollars subject to risk.

           We assessed the sufficiency of FAA's internal controls to prevent and detect
           improper payments to AIP grant recipients. Specifically, we (1) determined the
           extent to which improper payments were made during the period reviewed, and (2)
           assessed FAA's approach to AIP grant oversight for preventing and detecting
           improper payments.

           To conduct our work, we tested a sample of AIP payments to 26 grantees made
           between June 1, 2007, and September 30, 2008, and estimated the total amount of
           improper AIP payments for fiscal year 2008. In addition, we assessed FAA's risk-
                                                                                                          2

based approach to AIP grant oversight, including the risk-assessment and payment
review processes. This performance audit was conducted in accordance with
generally accepted government auditing standards as prescribed by the
Comptroller General of the United States and included such tests as we considered
necessary to detect fraud, waste, or abuse. A detailed description of the scope and
methodology used on this audit can be found in Exhibit A.

RESULTS IN BRIEF

Over $13 million (more than 5 percent) of AIP payments made to 17 of the 26 AIP
grantees we reviewed were improper. 1 Approximately $7 million of the
$13 million was paid for work performed that grantees did not sufficiently
document. Almost $4 million was paid to grantees for ineligible or unallowable
services. The remaining $2 million was paid to ineligible recipients, in the
incorrect payment amount, or as a duplicate payment. Overall, using statistical
sampling techniques, we estimate that a total of about $161 million of fiscal year
2008 payments to AIP grantees nationwide were improper. 2

FAA's risk-based approach to AIP grant oversight is inadequate and does not
effectively prevent or detect improper payments. 3 FAA rated 24 of the 26
grantees in our sample as low-risk for making improper payments. However, we
determined that 15 of these low-risk grantees met the agency's criteria for a
moderate-risk rating, and 11 of them made improper payments totaling
$12.9 million—more than 98 percent of the improper payments we identified.
Assigning a grantee an inaccurate low-risk status increases the potential for
improper payments since low-risk grantees can receive funding without submitting
documentation or obtaining prior approval from FAA as required for high-risk
grantees. Furthermore, FAA's review of documentation submitted in support of
payment requests to moderate-risk grantees is inadequate. We also found that one
grantee did not perform an adequate cost or price analysis to determine the price
reasonableness of an AIP funded, $124.8 million contract award. As a result, this
grantee may have overpaid for the work performed, and such overpayments
constitute improper payments (incorrect amount). FAA also could not provide
support that the contract costs were reasonable, and failed to notify the Office of
Inspector General (OIG) of possible bid improprieties in this single-bid contract,
per agency regulations.

1
     Improper AIP payments can represent FAA payments to grantees or grantee payments to contractors.
    With the latter, an improper payment determination was made only if AIP funds were requested by the
    grantee, and paid by FAA.
2
    The $161 million best estimate is applicable to the $3.2 billion in fiscal year 2008 electronic payments
    only, with an estimated range from $88 million to $233 million, at 90 percent confidence.
3
    The primary oversight of the Federal grants funds expended under AIP is provided by the Associate
    Administrator for Airports office through 21 Airport District Offices (ADO) and three regional offices.
                                                                                                       3


We are making a series of recommendations aimed at strengthening controls to
prevent and detect improper payments, including improving FAA's risk-based
assessments and AIP payment oversight.

BACKGROUND

In 2002, Congress passed the Improper Payments Information Act (IPIA), 4
providing a framework for agencies to use in testing for improper payments,
identifying their causes, and implementing solutions to reduce them. In August
2006, the Office of Management and Budget (OMB) established detailed
requirements for complying with IPIA. 5 OMB further clarified that improper
payments include the following:

•     payments to ineligible recipients;
•     duplicate payments;
•     payments in incorrect amounts;
•     payments for ineligible services or services not received; or
•     payments having insufficient documentation.

In November 2009, the President signed Executive Order 13520 to reduce
improper payments and eliminate waste, fraud, and abuse in Federal programs. In
coordination with Federal, state, and local governments, OMB is currently
working to hold agencies accountable for misusing taxpayer dollars and is creating
stronger incentives for reporting, reducing, and recovering these erroneous
payments.

DOT has identified AIP as susceptible to improper payments. In fiscal years 2005
and 2006, we reported that FAA lacked (1) an effective, risk-based approach to
oversee and monitor AIP grantee activities; (2) policies and procedures describing
the roles and responsibilities for those charged with grant monitoring; and
(3) front-end preventative and detective controls found in more reliable grant
administration and monitoring processes. 6 We also reported that FAA overly

4
    Pub. L. No. 107-300 (2002).
5
    OMB Circular A–123, Appendix C (August 2006), which requires, (1) reviewing all programs and
    identifying those susceptible to improper payments, (2) obtaining an estimate of the annual amount of
    such payments, (3) implementing a plan to reduce improper payments, (4) reporting annual estimates of
    the amount of improper payments in agency programs and progress made in reducing them, and (5)
    recovering improper payments.
6
    Quality Control Review of Audited Financial Statements for Fiscal Years 2005 and 2004, Federal
    Aviation Administration, OIG Report QC-2006-010, November 14, 2005. Quality Control Review of
    Audited Financial Statements for Fiscal Years 2006 and 2005, Federal Aviation Administration, OIG
    Report QC-2007-009, November 14, 2006. OIG reports and testimony can be found on our Web page:
    www.oig.dot.gov.
                                                                                                       4

relied on single audits performed by independent audit firms for assurance that
Federal funds were properly administered. 7

In January 2007, FAA responded to our recommendations by supplementing the
AIP Handbook 8 and implementing a risk-based approach to AIP grant oversight.
Grantees were categorized into one of three risk-levels based upon a grantee's
potential for the misuse of AIP funds: nominal (low), moderate, or elevated
(high). 9 Risk-level determines the extent of documentation grantees are required
to submit to support payments and the intensity of FAA's payment and grant
oversight. A brief description of AIP payment documentation requirements and
FAA oversight by risk-categorization can be found in Exhibit B.

Since 2008, FAA has taken further action to improve its processes and procedures
for detection of improper payments, and its oversight of AIP grants, including
ARRA grant funds. For example, in response to an OIG audit advisory, 10 FAA
significantly increased its annual testing sample size, and began closely
monitoring the execution of sampling methodology. Also, in an attempt to reduce
improper payments in AIP, FAA has recently promoted improper payments
education, and provided guidance and outreach to personnel in its field offices.
For example, in December 2008, an e-mail alert was sent to field offices clarifying
what constitutes an improper payment. Lastly, FAA has hired an independent
contractor to evaluate its risk-based approach to grant oversight and to recommend
enhancements to current risk-assessment methods based upon best practices.

AIP GRANTEES RECEIVED MILLIONS IN IMPROPER PAYMENTS

We tested $251.3 million in AIP payments and found $13.1 million (over
5 percent) in improper payments to 17 of 26 grantees. Using statistical sampling
techniques, we estimate that approximately $160.7 million of fiscal year 2008
payments made electronically to AIP grantees nationwide were improper. 11 For
the improper payments we identified (see Table 1), over 51 percent were for

7
   OMB Circular A-133 sets forth standards for obtaining consistency and uniformity among Federal
   agencies for the single audit of States, local governments, and non-profit organizations expending
   Federal awards.
8
   The AIP Handbook provides FAA staff with guidance about the administration of the AIP. Between
   revisions of the Handbook, staff receives additional guidance in the form of Program Guidance Letters
   (PGLs).
9
   Program Guidance Letter 07-1, Revised and Updated Requirements for Airport Improvement Program
   Grant Management, dated January 11, 2007.
10
   OIG ARRA Advisory – Sampling of Improper Payments in Major DOT Grants Programs, Department of
   Transportation, Advisory No. AA-2009-002, June 22, 2009.
11
   AIP grantees (if approved) can receive funding electronically via a "Letter-of-Credit" (LOC) draw-down
   system or manually by submitting documentation as required by the FAA Handbook Order 5100.38C.
   Our statistical sampling resulted in a best estimate of $160.7 million, which is 5 percent of the $3.2
   billion total "electronic or LOC" payments with ±2.3 percent of precision at 90 percent confidence.
                                                                                                         5

insufficient documentation of the work reimbursed from AIP. 12 Another
10 percent represent payments to ineligible recipients because of a lack of
compliance with FAA guidance and FAA procurement regulations.
Approximately 39 percent and the most likely to be recoverable were payments for
ineligible or unallowable services, payments in the incorrect amount, and duplicate
payments.




12
     Each of the improper payments was classified into one of five categories identified by OMB Circular A-
     123, Appendix C.
                                                                                                                      6

Table 1. Improper Payments Identified by OMB Category

                                        Insufficient    Ineligible    Ineligible    Incorrect   Duplicate
Grantee                              Documentation       Services     Recipient      Amount     Payment           Total
Panama City-Bay County
Airport and Ind. District
(Florida)                                 4,419,134     2,120,971                    121,501                  6,661,606
Commonwealth Ports Authority
(Mariana Islands)                                             442     1,284,635                               1,285,077
City of Santa Barbara
(California)                                528,235      549,275                      26,494                  1,104,004
Memphis-Shelby County
Airport Authority
(Tennessee)                                   2,153     1,093,797                                   5,723     1,101,673
Wisconsin Dept. of
Transportation, Bureau of
Aeronautics (Wisconsin)                     711,869                                                            711,869
City of Los Angeles
(California)                                709,629                                                            709,629
County of Sacramento
(California)                                                4,309                    675,165                   679,474
City of Houston
(Texas)                                     283,189       59,833                      28,982                   372,004
City of Phoenix
(Arizona)                                                156,821                      11,009                   167,830
City of Jonesboro
(Arkansas)                                   38,915                                   82,807                   121,722
Illinois Dept. of Transportation,
Division of Aeronautics (Illinois)                                                    94,944                    94,944
Barnwell County Airport
Commission (South Carolina)                  42,893                                                             42,893
City of Dunsmuir
(California)                                                             41,515                                 41,515
Port of Seattle
(Washington)                                                  288         8,268                      118          8,674
Erie Regional Airport Authority
(Pennsylvania)                                              3,515                                                 3,515
City of Kansas City
(Missouri)                                    2,624                                                               2,624
Lancaster Airport Authority
(Pennsylvania)                                                907                        725                      1,632
                      a
Cumulative Total                         $6,738,641    $3,990,158    $1,334,418    $1,041,627     $5,841    $13,110,685
Percentage of Total Improper
Amount:                                     51.40%        30.43%        10.18%         7.94%       0.04%         100%
a
  Almost $4 million in improper payments were identified outside of the statistical sample and were not
included in the projection. On May 18, 2009, FAA concurred with the Office of Inspector General on
$1.015 million of these improper payments.

Grant Recipients Lacked Documentation to Support AIP Payments

FAA made $6.7 million in AIP payments to grantees that failed to sufficiently
document and maintain support for the work performed. An OIG engineer
reviewed 23 construction line items from 11 grantees and found that 10 items from
                                                                                7

6 grantees lacked required documentation on work quantity, and in some cases,
quality. For example:

• Panama City-Bay County Airport and Industrial District, FL (Panama City)
  received over $4 million for construction work on temporary pollution and
  erosion control. However, Panama City could not provide documentation
  demonstrating that the completed work met FAA and contract requirements.
  Under FAA's AIP regulations, grantees are required to perform and document
  daily inspections and tests to ensure that all work conforms to the project’s
  technical specifications.

• The City of Santa Barbara, CA (Santa Barbara) received $124,700 for pipe
  drain installations, but was unable to provide the OIG engineer inspection
  records to support claims for the completed work. FAA requires grantees to
  retain such records and a project engineer to verify that all construction
  invoices billed to a grantee reflect the actual work completed to date.
  However, the project engineer could not provide a breakdown of the specific
  length of pipe drains installed. Santa Barbara's progress and construction
  reports provided only a rough estimate of the percentage of work completed,
  which is insufficient to support a payment made on a linear foot basis as
  specified by the contract.

• Another four grantees received over $1 million: three for construction items
  without maintaining documentation supporting that the installed items met
  contract specifications for quality and one that did not sufficiently document
  quantity of work.

Grantees Received Payments for Ineligible Services

FAA made almost $4 million in improper payments to grantees that billed for
expenses that were ineligible based on the terms of the grant agreement or FAA
policy or regulation. For example:

• Panama City received payment for work that was not approved for
  reimbursement under the AIP grant agreement. Because Panama City was a
  low-risk grantee, there was no requirement for them to submit payment
  documentation for FAA review and approval. The grantee used $784,000 to
  pay financing costs for a new airport, costs which are prohibited under AIP
  guidelines. The grantee also applied another $1.3 million towards AIP eligible
  tasks that were not approved in the grant agreement. For more than 2 years,
  FAA was unaware that this grantee was receiving payments to fund these
  ineligible/unapproved tasks. When a state auditor brought the matter to FAA's
  attention, instead of taking action to recover the funds, FAA's Airport District
                                                                                                               8

       Office (ADO) modified the grant agreement by incorporating and approving
       AIP eligible tasks already billed, and identifying other eligible tasks to
       compensate for the $784,000 paid for prohibited expenses.

• The Memphis-Shelby County Airport Authority, TN (MSCAA) received more
  than $680,000 for performance bonuses, even though FAA regulations prohibit
  reimbursement of such bonuses. MSCAA also billed FAA more than
  $264,000 for indirect costs without an approved Cost Allocation Plan, which is
  required by the AIP Handbook. 13 Lastly, MSCAA billed FAA about $16,000
  for furnishing an Aircraft Fire Fighting and Rescue Station, which is prohibited
  by FAA policy.

• Santa Barbara billed for both eligible and ineligible services on the same AIP
  payment request and received $549,300 for a hangar that was not eligible
  under the grant agreement. The City used one construction contract which
  included work for the hangar, as well as taxiways, which were eligible for AIP
  funding under the terms of the grant agreement. While using one contract for
  ineligible and eligible AIP services is not prohibited, the costs of ineligible
  items must be removed from payment requests to FAA.

Grantees Made Payments to Ineligible Recipients

We identified improper payments totaling $1.3 million to contractors (ineligible
recipients), by three AIP grantees: one that did not comply with FAA guidance
and two that did not follow FAA small purchase procedures. 14

• The Commonwealth Ports Authority (CPA) awarded a non-competitive AIP
  funded contract for security enhancements at the Saipan International Airport
  two weeks prior to receiving FAA's official approval--despite FAA instruction
  that procurement by non-competitive proposal should be approved prior to any
  contract awards. 15 The resulting improper payment under this contract was
  $1.3 million.




13
     In accordance with the FAA AIP Handbook Order 5100.38C and OMB Circular A-87, "Cost Principles
      for State, Local, and Indian Tribal Governments," grantees are not authorized to charge for indirect
      costs, such as administrative fees that are not directly associated with work stated in the grant agreement
      unless there is an approved Cost Allocation Plan.
14
     AIP Handbook, Chapter 9, Paragraph 904(c), pg. 150. Small Purchase Procedures. Oral solicitation is
      acceptable for very small purchases, but should be adequately documented. Except for very small
      purchases, a letter request should be issued as a minimum, and a written proposal should be solicited.
15
     February 7, 2003 Letter from Airports Division Manager (AWP-600) to Manager, Honolulu Airports
      District Office (HNL-600): Security Enhancements to Meet Transportation Security Administration
      Requirements at Saipan International Airport.
                                                                               9

• The City of Dunsmuir, CA expended about $42,000 in AIP funding for tree-
  cutting services without providing evidence that small purchase requirements
  were met. In a written response, FAA agreed with OIG that the $42,000
  payment was improper.

• The Port of Seattle could also not provide evidence they met small purchase
  requirements when retaining escrow services, for which they received $8,300
  in AIP funds.

FAA Made Payments for Incorrect Amounts

Another $1 million in improper payments was for incorrect amounts billed by
eight grantees. FAA AIP policy prohibits grantees from billing for goods and
services that exceed costs incurred to date. However, the County of Sacramento
billed FAA the full amount of construction invoices before the construction
contractor received full payment--$675,000 more than costs incurred.

The majority of the remaining payments in the incorrect amount were made by
FAA to three grantees:

• On seven occasions, the Illinois DOT, Division of Aeronautics received
  payments for 100 percent of costs rather than the lower Federal share stated in
  grant agreements.

• Santa Barbara received AIP funds before all the work was completed, as many
  as 5 months before all vendors were paid.

• On one AIP payment request, Panama City overbilled FAA by $122,000. The
  grant agreement specifically limited the Federal contribution on four specific
  construction lines at the City's Bay-County International Airport. The airport
  authority did not properly account for the Federal limitation, yet FAA
  disbursed the funds.

FAA Made Duplicate Payments to Grantees

MSCAA billed FAA for identical expenses under two separate AIP grant
agreements which resulted in a duplicate payment amount of about $6,000. We
also found that more than $400,000 in duplicate payments were made to two
grantees outside of our sample. In one case, the City of Farmington, New Mexico,
requested and received an electronic payment of $434,000 for eligible AIP costs.
One week later, the City requested a manual payment for the same amount, which
FAA processed and paid. The duplicate payment went undetected for more than
2 months before the grantee informed FAA that the error had occurred; subsequent
                                                                                                      10

draw-downs for reimbursement were reduced until the improper payment was
recovered. Yolo County, California, similarly received a duplicate payment of
about $10,000. The grantee identified the improper payment 1 month later and
notified FAA. The County agreed to reduce subsequent draw-downs until FAA
recovered the improper payment. These examples are indicative of a lack of
controls to prevent grantees from receiving both manual and electronic
reimbursements for the same expenses.

FAA'S RISK-BASED APPROACH TO GRANT OVERSIGHT DOES
NOT PREVENT OR DETECT IMPROPER PAYMENTS

FAA's risk-based approach to grant oversight is inadequate to effectively prevent
or detect improper AIP payments. We found that a close relationship exists
between the accuracy of a grantee's risk-rating and the potential for improper
payments—more than 98 percent of the $13.1 million of improper payments
identified were applicable to 11 grantees inaccurately categorized as low-risk.
We also found that the risk-based approach does not require a sufficient level of
documentation to support electronic payments to low and moderate-risk grantees.
Documentation review and payment approval is only required for those grantees
presenting the highest risk for improper payments.

In addition, we found a lack of evidence that price or cost analysis was adequately
performed prior to the Port of Seattle awarding a $124.8 million AIP funded
contract for embankment work during the construction of the third runway at the
Seattle-Tacoma International Airport. In the absence of such an analysis, the Port
of Seattle may have overpaid for the embankment work performed on the third
runway. Such overpayments constitute improper payments (incorrect amount).

FAA Inaccurately Rated Grantees as Low-Risk

At the time of our review, all but 3 percent of FAA's 1,849 AIP grantees were
assigned a low-risk rating. 16 When the risk-based oversight process was originally
implemented, FAA assumed the majority of grantees administered their grants in
good faith and as a result, rated all pre-existing airport grantees as low-risk,
allowing them to electronically draw-down payments with minimal documentation
support and management oversight. The oversight concern is also apparent in that
ADO management is overly accommodating of grantee needs, as illustrated in the
example of the $2.1 million of improper payments identified for Panama City and
referenced on page 7. In that case, instead of raising the grantee's risk-rating for

16
     In fiscal year 2009, FAA informed the OIG that there were 1,849 entities (grantees) with at least one
     open grant. Forty-three grantees were deemed "moderate-risk" and five "high-risk."
                                                                           11

the improper use of grant funding, the ADO retroactively modified the grant
agreement to make previously billed, but not approved, tasks eligible for AIP
reimbursement. Such practices do not ensure the proper use of Federal funds.

Among the 26 grantees in our sample, 24 were rated by FAA to be at low-risk of
making improper payments. However, 15 of these low-risk grantees met at least
one criterion for a moderate-risk rating, and 11 of the 15 received improper
payments totaling $12.9 million (see Table 2).
                                                                                                     12

Table 2. FAA AIP Low-Risk Grantees Meeting FAA's Criteria for Moderate
Risk-Rating

                                                     FAA Criteria to Justify Raising
                                                        Grantee's Level of Risk           Improper
Grantee (State)                                                                           Payments
                                                      One         Two         Three      Found ($'s)
                                                    Criterion    Criteria     Criteria
Panama City-Bay County Airport and Ind. District
                                                        ●                                    6,661,606
(Florida)
Commonwealth Ports Authority (Mariana Islands)                      ●                        1,285,077

City of Santa Barbara (California)                      ●                                    1,104,004
Memphis-Shelby County Airport Authority
                                                                                 ●           1,101,673
(Tennessee)
Wisconsin DOT, Bureau of Aeronautics
                                                                    ●                          711,869
(Wisconsin)
City of Los Angeles (California)                                    ●                          709,629

County of Sacramento (California)                                   ●                          679,474

City of Houston (Texas)                                             ●                          372,004

City of Jonesboro (Arkansas)                            ●                                      121,722

Illinois DOT, Division of Aeronautics (Illinois)                    ●                           94,944

Port of Seattle (Washington)                                        ●                            8,674
State of Alaska, DOT and Public Facilities
                                                        ●
(Alaska)
Clark County Dept. of Aviation (Nevada)                 ●

City of San Antonio (Texas)                             ●

State of South Dakota, DOT (South Dakota)               ●

TOTALS                                                  7           7            1         $12,850,676


Based on FAA's risk-based approach to grant oversight, grantees receiving more
than $20 million in total annual grant project funding qualify at the moderate-risk
level. We found that 12 of the 15 low-risk grantees that were incorrectly
categorized had received more than $20 million in funding for fiscal year
2008, 17 and 8 of those 12 had improper payments. The failure to implement this
particular criterion was not limited to the grantees in our sample. We analyzed the
total fiscal year 2008 AIP payments and found that nationally only 1 of 34 low-
risk grantees having received more than $20 million was raised to a moderate-risk
status.


17
     Commonwealth Ports Authority, City of Santa Barbara, and the City of Jonesboro did not receive more
     than $20 million in total annual grant funding for fiscal year 2008.
                                                                                                      13

A number of grantees in our sample rated as low-risk met two criteria for a
moderate-risk rating. For example, CPA met two moderate-risk criteria: a
previous finding of noncompliance with grant assurances, and a single audit
finding requiring payment to DOT in excess of $100,000. Regarding the latter, a
single audit report for fiscal year 2005 identified over $706,000 of potentially non-
reimbursable costs because CPA could not provide an approved Cost Allocation
Plan, as required by the AIP Handbook and OMB Circular A-87, to demonstrate
indirect administrative costs were allowable. While we reported this single audit
finding to FAA in May 2007, FAA did not take action and recover the full amount
of non-reimbursable costs until April of 2009.

MSCAA, which had a total of $1.1 million in improper payments in our sample,
met three criteria: (1) total grant funding in excess of $20 million for fiscal year
2008, (2) a previous finding of non-compliance with grant assurances, and
(3) repeated draw-down irregularities. For example, MSCAA was found to be in
non-compliance with grant assurances because their cost allocation methodology
did not comply with A-87 requirements. This resulted in improper payments
totaling $265,000. Despite meeting three criteria for a moderate-risk rating,
MCSAA continues to be rated low-risk.

The accuracy of a grantee's risk-rating and the potential for improper payments is
closely related because lower risk-ratings require less payment oversight.
Although we found that more than 98 percent of the improper payments identified
were applicable to 11 grantees with inaccurate risk-ratings, FAA does not require
ADO management to review grantee risk-assessments at regular intervals.
Performing such a review on a regular basis using the most current information
available about a grantee would enable FAA to determine which grantees require
additional payment oversight and would aid in preventing and detecting improper
payments.

FAA's Insufficient Requirements and Procedures Contributed to
Improper Payments

FAA's documentation requirements and payment review procedures under the
risk-based approach to grant oversight are insufficient to prevent and detect
improper payments to low- and moderate-risk grantees. 18 FAA's July 2006
guidance outlines the minimum financial documentation and review requirements
for low-, moderate-, and high-risk grantees' AIP payment requests (see Table 3).



18
     Manual payment requests at any risk-level will generally require the submission of payment specific
     support such as a SF-271 and invoices prior to FAA approval. High-risk grantees are permitted to make
     only manual payment requests.
                                                                                                    14




Table 3. Required Payment Documentation and Review Requirements by
Risk-Level (PGL 07-1)

Requirement                                    Low-Risk        Moderate-Risk             High-Risk
Payment documentation submitted to             None            Invoices or listing of    Invoices
FAA                                                            invoices
Documentation review prior to payment          No              No                        Yes
Documentation review after payment             No              Not Clear                 N/A


While the July 2006 guidance requires moderate-risk grantees to submit either
invoices or a listing of invoices to substantiate payment requests, we found
examples where payment documentation was not adequately reviewed by an FAA
program manager. Specifically, we reviewed 22 payments to four moderate-risk
grantees and found that invoices for 8 payment requests from one grantee were not
reviewed—2 of the payments, totaling $152,000, were improper because they
were applied to the wrong grant. This happened because FAA does not require
ADO staff to review and determine if payment requests to moderate-risk grantees
are proper. Further, FAA provides limited instruction to program managers on the
purpose and use of the invoices and the listings of invoices requested for
moderate-risk grantees. To significantly reduce and detect improper payments, a
timely review and approval of supporting documents submitted by moderate-risk
grantees for each payment request is warranted.

Grantees determined to be low-risk that request AIP funds electronically—which
comprise all but 2 of the 24 low-risk AIP grantees we reviewed—were not
required to submit invoices or a listing of invoices for each payment request.
Instead, these grantees submitted on a quarterly basis a standard document
(SF-272), which identified the payment amount requested for the period and other
general information, such as the number of AIP payments received during the
quarter. 19 Because the SF-272 captures quarterly data, it does not provide enough
detail to support each request. Specifically, the SF-272 does not include payment
specific information such as a summary of the work performed, vendor names,
amounts billed, date of services, or the Federal share of costs.

We found that even basic summary level information can be useful to determine if
an AIP payment is proper. To initiate our sample item review, we requested a
summary level listing of invoices and other eligible costs to substantiate the

19
     In October 2009, FAA issued Program Guidance Letter 10-01, replacing the SF-272 with a new SF-425
     Federal Financial Report. The SF-425 is also required quarterly and does not contain any payment
     specific information.
                                                                                                         15

payment amount. Prior to an in-depth review of the associated invoices and other
supporting documentation, we used these spreadsheets to identify improper
amounts totaling over $200,000 made by three grantees. For example, at the State
of Illinois, we easily determined that on seven separate billing requests, FAA was
billed at 100 percent of the project costs rather than the eligible lower Federal
participation rate stated in the grant agreements. At Santa Barbara, we found that
FAA was billed up to 5 months before the eligible services were received.

The Port of Seattle Received AIP Funding for a $124.8 Million
Contract without Performing Adequate Cost or Price Analysis

We found that the Port of Seattle did not perform an adequate cost or price
analysis for a $124.8 million AIP funded contract award to a sole bidder for
embankment work on the third runway at the Seattle-Tacoma International
Airport. We reviewed an independent audit report and a special investigative
report that addressed the procurement in detail, 20 and we conducted our own
review into this contract procurement. In the absence of an adequate cost or price
analysis, the Port of Seattle was unable to determine if the final contract price was
reasonable, and the Port may have overpaid for the third runway embankment
work. Such overpayments constitute improper payments (incorrect amount). At
the time of our review, FAA had already reimbursed the Port of Seattle about
$46 million in AIP funds, and according to FAA, AIP payments to fund this
contract will be made until 2015. 21 We also found that FAA did not satisfy itself
that the contract costs were reasonable, including a questionable $9.4 million
change order, and FAA did not notify OIG of the possibility of bid improprieties
for this sole-bid contract, in accordance with AIP Handbook procedures. 22

An adequate cost or price analysis would have determined the reasonableness of
the bid accepted for contract award. The accepted bid for the embankment work--
which was also the only bid received--was for $124.8 million, but the Port of



20
    Report of the Special Investigative Team, December 3, 2008 (McKay); Performance Audit of the Port of
   Seattle's Construction Management, Cotton and Company, November 27, 2007 (Cotton). The special
   investigation was requested by the Port's Board of Commissioners as a result of the Cotton findings.
21
   The third runway project was funded by FAA under a Letter of Intent (LOI). The LOI program was
   established to fund large-scale airport projects. Under an LOI, FAA reimburses a grantee according to a
   given schedule as funds become available from Congress each year over the term of the LOI.
22
    AIP Handbook, Chapter 10, Paragraph 1052(b)(3), pg. 183. If there are less than five bidders and the low
   bid exceeds the engineer's estimate by 10 percent, the grant should not be issued unless the FAA satisfies
   itself that the costs are reasonable. AIP Handbook, Chapter 10, Paragraph 1053(a)(4), pg. 184. Field
   Office should notify the OIG when — (1) there are fewer than five bidders, the low bid is 95 percent or
   more of the engineer’s estimate and the bid is $500,000 or more; or (2) there is only a single bidder on a
   construction contract, and the bid is $250,000 or more.
                                                                                                           16

Seattle's, engineer's estimate to complete the work was approximately
$105 million, a difference of about $19.8 million, or almost 19 percent. 23

Although we found that the Port did compare schedule totals between the estimate
and the bid, 24 it did not perform sufficient additional procedures to verify price
reasonableness. FAA's guidance for performing an adequate cost or price analysis
as stated in the AIP Handbook does not identify best practices used by FAA for
their procurements. For example, the Port could have performed additional
analyses including, 1) obtaining more current prices from the contractor; 2) an
evaluation of the subcontractors' bids; 3) documenting research of current market
prices; 4) a review of historical costs for individual cost elements, such as labor
and overhead rates; and 5) a review of the contractor's proposed profit. 25 Based on
discussions with the Port and with FAA staff, there is no documentation which
states that either the Port or FAA determined that the price was fair and
reasonable. Lastly, the special investigative team reported that the contractor's
profit on this contract was approximately $28.9 million, a markup on job costs of
more than 30 percent, which is far beyond typical industry markups. 26

FAA Did Not Verify Price Reasonableness and Failed to Notify OIG of Possible
Bid Improprieties

FAA could not provide support that the contract costs for the embankment work
performed on the third runway project at the Sea-Tac International Airport were
reasonable as required by the AIP Handbook, prior to issuing AIP grants in
support of this contract. Furthermore, FAA did not notify OIG regarding possible
bid improprieties related to this sole-bid contract, even though this procurement
met the criteria for doing so as stated in the AIP Handbook. As a result, OIG did
not have an opportunity to review the propriety of the contract before it was
awarded.


23
    In negotiations between the Port and the contractor, the Port's CEO directed 3rd runway personnel to
   negotiate with the contractor to bring the contract price within 10 percent of the revised Engineer's
   Estimate. A deductive change order was subsequently developed, reducing the contractor's bid by $9.4
   million to approximately $115.4 million. The negotiations for the $9.4 million change order also did not
   involve an adequate cost or price analysis, and the conclusions reached did not ensure that cost
   reductions would actually occur. The special investigative team reported, and the Port confirmed, that
   the realized cost reduction that resulted from the negotiated $9.4 million change order was closer to $2
   million. Furthermore, the contractor did not agree to sign the deductive change order until 5 months after
   the negotiations occurred and the contract had already been awarded.
24
   AIP Handbook, Chapter 9, Paragraph 906(a), pg. 153. "Required Analysis. Sponsors are required to
   perform some form of a cost or price analysis for every procurement, including change orders. This
   analysis is needed for FAA review to determine the reasonableness of cost…."
25
   Title 49 - Code of Federal Regulations, Part 18.36(f), Contract Cost and Price, states that "a cost analysis
   will be necessary when adequate price competition is lacking……unless price reasonableness can be
   established on the basis of a catalog or market price…"
26
   Report of the Special Investigative Team, December 3, 2008 (McKay).
                                                                                                        17

CONCLUSION

Deterring improper payments has been identified as a Governmentwide priority to
ensure the responsible use of Federal funds in today's tight economic environment.
In DOT, FAA has more grantees to manage than any other Operating
Administration. Overseeing billions of dollars of annual AIP payments is a major
challenge by any account. The infusion of $1.1 billion of ARRA funds further
increases the amount of AIP funds subject to risk. While FAA has taken steps to
strengthen its oversight and annual testing for improper payments, 27 further action
is needed to meet the level of accountability required. Until FAA takes the
necessary actions to ensure that AIP grantees have been assigned an accurate risk-
rating and administers sufficient payment oversight, millions of taxpayer dollars
provided under AIP and ARRA will be at risk for improper payments.

RECOMMENDATIONS

To strengthen controls over improper payments to AIP grantees, we recommend
that the Acting Associate Administrator for Airports, in consultation with the FAA
Chief Financial Officer:

       1. Re-enforce FAA guidance to AIP grantees for preparing "construction"
          payment requests, including supporting documentation to be maintained for
          both the quantity and quality of the work/materials reimbursed under AIP.

       2. Identify the funds that can be recovered from the improper payments
          identified in this report and develop and implement a plan to maximize the
          recovery of these payments.

       3. Develop a procedure to prevent duplicate AIP payments to grantees that
          submit manual payment requests and draw-down funds electronically under
          the same grant.

       4. Revise risk-management procedures to require:

           a. ADO program managers to review annually the risk-assessments for
              their grantees and provide written confirmation to the associate
              administrator that the assessment was done in compliance with the risk-
              management criteria specified in the risk-management procedures.


27
     On June 22, 2009, we reported that the Department needs to increase its oversight and expand its sample
     sizes for the annual improper payments testing required under OMB Circular A-123, Appendix C. The
     Department responded by significantly increasing the sample sizes tested.
                                                                                  18

      b. ADO program managers to review and approve payment support
         documents submitted by moderate-risk grantees within 30 days of
         payment.

      c. All low-risk grantees requesting payment to prepare and have on file for
         FAA review, as needed, a summary listing of invoices and other eligible
         charges for each payment request to include: (1) a brief work summary,
         (2) vendor names, (3) dates of service, (4) billed amounts, (5) applicable
         payment dates, and (6) a calculation of the Federal share.

      d. ADO program managers to review on a periodic basis the invoices or a
         summary listing of invoices and eligible charges for AIP payments to
         low-risk grantees.

   5. Initiate a review to determine if the final contract price for the third runway
      embankment contract at the Seattle-Tacoma International Airport was fair
      and reasonable. Within 30 days, provide a report to the Office of Inspector
      General detailing the results of this review and planned actions.

   6. Revise the AIP Handbook to clarify what information is required to assist
      grantees in determining contract cost or price reasonableness, and further
      outline the responsibility for FAA ADO program managers to verify that
      contract costs are reasonable. Develop training for grantees and program
      managers to reinforce these revisions, if needed.

   7. Re-emphasize to ADO management the AIP Handbook requirement for
      contacting OIG when conditions warrant a "Review for Bid Improprieties."

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided FAA a draft of this report on September 2, 2010, and received its
written comments on October 5, 2010. FAA's complete response is included as an
appendix to this report. In addressing our recommendations, FAA fully concurred
with five recommendations and partially concurred with two recommendations.
We consider the proposed actions for recommendations 3, 4, 5, and 7 responsive
and sufficient to resolve pending action dates.

For recommendation 1, FAA stated that it will re-emphasize to AIP grant sponsors
the requirements in the AIP Handbook and relevant Advisory Circulars on the
quality and quantity of necessary documentation they should maintain for AIP
grant projects. We do not take issue with the quantity of and quality of
                                                                                   19

documentation, but the lack of required documentation to support the quantity and
quality of work or materials billed to FAA.

For recommendation 2, FAA did not agree with the amount OIG deemed improper
($13.1 million). Our analysis of the improper payments included in Exhibit C
details the facts supporting our conclusion regarding the payments tested. Neither
FAA's response nor the multiple requests made during the audit have disclosed
facts or documents to refute these conclusions.

The amount of $13.1 million in improper payments includes an OIG engineer's
review of records provided in support of construction line items to ensure that the
quantity and quality of work completed was sufficiently documented. Initial
findings were discussed with FAA on July 8, 2009. FAA provided additional
documentation, which was reviewed by our engineer, and items were cleared if the
documentation adequately supported the payments made for the construction
items. The items still lacking sufficient documentation were again discussed with
FAA on August 28, 2009. FAA provided further documentation, which was
considered by the engineer. On May 13, 2010, we met again with FAA, and with
OIG's engineer, to review the summarized items that OIG's engineer had identified
as improper.

FAA did not agree with our projected estimate of $160.7 million in
improper payments made in fiscal year 2008. FAA indicated that its estimate of
fiscal year 2008's improper payments could be as low as $46.6 million. On
May 11, 2010, OIG's statistician provided an in-depth presentation to FAA on our
sampling methodology and projection, and addressed all questions posed by FAA
officials and their contractors. Neither at the conclusion of that presentation nor in
its response, did FAA provide a basis for its position on the projected estimate of
improper payments.

For recommendation 6, while FAA concurred, it does not acknowledge the need to
revise current procedures when a cost or price analysis is required. The AIP
Handbook does not indicate the circumstances in which sponsors are required to
perform a cost analysis. Additional clarifying information is needed to determine
price reasonableness of contracts reimbursed by FAA.

ACTIONS REQUIRED

FAA provided acceptable actions and timeframes for recommendations 3, 4, 5,
and 7, and we consider the actions resolved but open until the planned actions are
complete. In accordance with Department of Transportation Order 8000.1C, we
request FAA to re-evaluate its position on recommendations 1, 2, and 6 and
provide a written response within 30 days of this report. We also ask FAA to
                                                                             20

reconsider its position on the $13.1 million in improper payments identified by
OIG and its position on our estimate of $160.7 million in improper payments made
in fiscal year 2008.

We appreciate the courtesies and cooperation of Department of Transportation,
Federal Aviation Administration's Office of Airports representatives during this
audit. If you have any questions concerning this report, please call me at
 (202) 366-1427 or Earl Hedges, Program Director at (410) 962-1729.


                                      #

cc:   Assistant Secretary for Budget and Programs, and Chief Financial
      Officer, DOT
      Acting Associate Administrator for Airports, FAA
      Martin Gertel, M-1
      Anthony Williams, AAE-001
                                                                                 21

EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

We conducted this audit between June 2008 and July 2010. Our objectives for this
audit were to assess the sufficiency of FAA's internal controls to prevent and
detect improper payment to AIP grant recipients. To address our audit objectives,
we interviewed FAA headquarters and ADO officials on their procedures used to
prevent and detect improper payments. FAA ADOs provided us with a walk
through of their processes for: (1) approving grants, (2) identifying and monitoring
high-risk AIP grantees, and (3) approving payment requests from grantees. We
interviewed AIP grant recipients on controls used to prevent and detect improper
payments.

During the survey phase, we tested a judgmental sample of 7 manual payments
and 69 electronic (letter-of-credit or LOC) payments, valued at $44.4 million and
made to 9 AIP grantees. Manual payments require grantees to submit payment
requests and documentation to ADOs for pre-payment approval, whereas LOC
payments, allow grantees to draw funds automatically without prepayment
approval. The sample was drawn from the universe of processed payments
recorded in the Department’s Delphi accounting system.

For the verification phase, the OIG statistician selected a 3-stage statistical
probability proportional to size sample with replacement to determine the extent of
improper payments made during fiscal year 2008. ‘With replacement’ meant a
payment had a chance of being selected more than once because it was returned to
the pool of eligible's after being selected. This methodology resulted in a
statistically valid sample of 18 out of 873 grantees, 116 out of 18,368 AIP
payments, and 470 vouchers with a value of $204 million out of a universe total of
$3.2 billion.

We also reviewed an additional $2.9 million of AIP payments not directly in the
survey or verification phase samples. These AIP payments were made to two
grantees, both of whom had associated payments that were tested in the
verification sample. The additional payments were to the Panama City-Bay
County International Airport and Industrial District and the City of Houston.




Exhibit A. Scope and Methodology
                                                                               22

We tested AIP payments for compliance with the Improper Payments Information
Act of 2002 (IPIA) and in particular, OMB Circular A-123, Appendix C.
Payments were also tested for compliance with OMB Circulars: A-87 and A-133;
Code of Federal Regulation (CFR) Title 49: “Transportation, Part 18 – Uniform
Administrative Requirements for Grants and Cooperative Agreements to State and
Local Governments; FAA Order 5100.38C, “AIP Handbook”; and FAA Advisory
Circulars 150/5370-10C and 150/5370-12A.

An OIG engineer reviewed 23 sample payment items to determine whether:
(1) payment items complied with contract-specified quantities and prices, (2)
payment quantities were properly measured and correctly calculated by the
grantee’s engineer, and (3) material quality tests indicated that materials met
contractual requirements.

We estimated the total amount of improper AIP payments made during the period
reviewed and classified these payments into one of the five categories of improper
payments as outlined in OMB Circular A-123, Appendix C. The categories are:
(1) payments to ineligible recipients; (2) duplicate payments; (3) payments in
incorrect amounts; (4) payments for ineligible services or services not received;
and (5) payments having insufficient documentation. We statistically projected
the amount of improper payments made in fiscal year 2008. We also assessed
FAA's risk-based approach to AIP grant oversight (PGL 07-1) including the risk-
assessment and payment review processes. Lastly, we examined FAA and other
procurement requirements (as applicable) for approving construction contracts to
further evaluate the overall adequacy of FAA AIP grant oversight.




Exhibit A. Scope and Methodology
                                                                                 23

EXHIBIT B. REQUIRED PAYMENT DOCUMENTATION AND FAA
OVERSIGHT BASED ON RISK-CATEGORIZATION (PGL 07-1)
High-risk grantees are those that have committed a blatant or reckless violation of
a grant agreement or have repeated any of the moderate-level infractions. Low-
risk grantees are those that do not meet the criteria for a moderate-risk rating.

Grantees with high-risk ratings must provide for FAA's approval project invoices
before receiving reimbursement payments from AIP funding. Furthermore, high-
risk grantees are not allowed to receive AIP funds electronically. On the other
hand, grantees with low-risk ratings are not required to provide evidence of work
completed for each payment request and can receive AIP funds electronically
without prior FAA approval. Moderate-risk grantees are required to submit
invoices or a listing of invoices for each payment request, although FAA's
guidance is unclear as to the level of review required.

A moderate-risk rating is applied to first-time airport grantees, grantees with an
annual total grant project funding amount that exceeds $20 million, grantees with
deviations from grant management processes resulting in criminal proceedings,
and grantees with other documented occurrences such as: 1) a finding of fraud
waste or abuse, 2) repeated grant draw-down irregularities, 3) single audit findings
requiring payments to the Federal Government in excess of $100,000,
4) previous finding of noncompliance with grant assurances, and 5) a lack of
conformance to plans and specifications.




Exhibit B. Required Payment Documentation and FAA Oversight Based on
Risk-Categorization (PGL 07-1)
                                                                                24

EXHIBIT C. ANALYSIS OF PAYMENTS DEEMED IMPROPER
Commonwealth Ports Authority, Mariana Islands - $1,284,635
The sole source contract award was not properly approved. The Boeing contract
was signed on February 12, 2004. A letter dated February 7, 2003 from the
Airports Division Manager (AWP-600) to the Manager, Honolulu Airports District
Office (HNL-600) states that a pre-award review for the procurement by non-
competitive proposal should be approved by your office prior to any contract
award. However, the contract award was approved by FAA on February 20, 2004,
eight days after the contract was awarded without evidence of a pre-award review.

City of Phoenix, Arizona - $156,821
This improper payment amount represents interest earned on ineligible payments
to the grantee. The grantee provided a spreadsheet identified as "Schedule of
Amounts Returned to FAA." The spreadsheet identified amounts of AIP funds
drawn-down during the life of the grant to reimburse the City for costs to acquire
properties surrounding the airport; the amounts totaled $1,413,058. The City
notified us that these properties were not eligible for AIP reimbursement since AIP
funds were previously used to sound mitigate the same properties. The City
reported the $1,413,058 amount was returned to FAA via the last draw-down of
the grant. In an April 13, 2009 teleconference with a City official, we were
notified that the City was not made aware for over three years that these funds had
been incorrectly drawn-down, until the City was notified by its contractor. Once
they were made aware, they corrected the situation by returning the funds to FAA.
We determined that the interest earned of $156,821 on AIP funds should be
considered improper.

Memphis-Shelby County Airport Authority, Tennessee - $1,093,797
The $1,093,797 amount is comprised of four improper payment amounts
($264,999; $15,789; $687,645 and $125,364). In the May 18, 2009 response to
our survey results, FAA agreed $264,999 was improper because the Airport lacked
an approved cost allocation methodology, and the $15,789 was for ineligible
furnishings. We also identified $687,645 in ineligible bonuses. The Airport billed
FAA without removing the bonus amounts in May 2008. In April 2010, we
presented to FAA that the Airport spent $125,364 for decorative landscaping,
which is prohibited by the AIP Handbook.

City of Santa Barbara, California, OIG Engineer Review - $528,235
The $528,235 is comprised of three payments for construction line items at the
Santa Barbara Municipal Airport. An OIG engineer found that these payments
lacked sufficient documentation to demonstrate the amount of work completed.
For two of the payments, the City of Santa Barbara could only provide a rough
estimate of the percentage of work completed; however, FAA specifications


Exhibit C. Analysis of Payments Deemed Improper
                                                                               25

required these items to be measured and recorded on a linear foot basis. The third
payment was not required to be measured on a linear foot basis; however, the City
of Santa Barbara did not provide documentation to demonstrate any approximate
measurement of the work completed.

Memphis Shelby County Airport Authority, Tennessee - $2,153
In the May 18, 2009 response to our survey results, FAA agreed insufficient
documentation existed for stored materials in the amount of $2,153.

Wisconsin Department of Transportation, Bureau of Aeronautics, OIG
Engineer Review - $711,869
Documentation provided did not support the payment made for construction work
completed at the Austin-Straubel International Airport. An OIG engineer
identified a discrepancy between the amount of work completed as stated in the
weekly progress reports and the invoiced amount. In addition, documentation was
not provided to demonstrate that required field tests and inspections were
performed, and that the quality of work performed and materials used met
specifications.

City of Los Angeles, California, OIG Engineer Review - $709,629
The $709,629 consists of three payments for construction line items at the Los
Angeles International Airport. All three line items lacked documentation to
support the quantity of work completed, and one line item lacked documentation
to demonstrate the quality of work performed. The City of Los Angeles submitted
documentation with contradicting quantities to support the amounts of work
completed. The quantity of work performed stated on the contractor's quantity
sheets was not supported by the supplemental documentation provided such as
worksheets, a field memo, and bid item payment sheets. Also, sufficient
documentation was not provided for one payment to demonstrate that various
required field tests and inspections were performed, and that the quality of work
performed and materials used met specifications.

City of Jonesboro, Arkansas, OIG Engineer Review - $38,915
Construction work completed at the Jonesboro Municipal Airport was not
sufficiently documented. An OIG engineer found discrepancies between the
amount of work completed as shown in the measurement documentation and the
project totals provided by the City of Jonesboro. In addition, the measurement
documentation provided was not dated, did not contain calculations, and in several
cases was not legible.

Barnwell County Airport Commission, South Carolina - $42,893
The Barnwell County Airport Commission lacked adequate construction
documentation for the installation of medium intensity taxiway lights. The


Exhibit C. Analysis of Payments Deemed Improper
                                                                                 26

supporting documentation from the Commission was a parts invoice, which did
not support the quantities or item descriptions shown on the invoice for this
construction line item.

Kansas City, Missouri - $2,624.
This payment was improper because of lack of documentation at the time of
payment. On January 15, 2009, we received the requested documentation from a
Kansas City official. Our review of invoice #32 from a contractor included an
engineer listed without an attached timesheet for this person. We contacted the
Kansas City official on February 20, 2009, to obtain the missing timesheet. We
were given a new invoice # 32 that replaced the original engineer with another
engineer and timesheet.

City of Phoenix, Arizona, OIG Engineer Review - $11,009
Documentation provided by this grantee demonstrated that a contractor was
improperly paid for incomplete work on a pavement construction line item at the
Phoenix Sky Harbor International Airport. The contract specification stated that
payments shall only be made for pavement work that is completed and accepted.
However, the City of Phoenix paid the contractor in advance for preparatory work.
As a result, this improper payment was categorized as a payment in the incorrect
amount. The OIG did not identify this amount as an alleged duplicate payment, as
stated in FAA's Response Memorandum.

Panama City- Bay County Airport and Industrial District, Florida, OIG
Engineer Review - $4,031,200
Required documentation was not provided to support a construction payment at
the Panama City-Bay County International Airport. No documentation was
provided to demonstrate that required field tests and inspections were performed
to ensure that the quality of work performed and materials used met specifications.

City of Houston, Texas, OIG Engineer Review - $77,495
Required documentation was not provided to support a construction payment at
the William P. Hobby Airport. The documentation provided used a different
material than stated in the contract; however, the City of Houston could not
provide documentation to demonstrate the substituted material was of acceptable
quality or that the substitution was approved. In addition, documentation to
support the quantity of work completed did not contain source documentation of
field measurements and calculations, which are necessary to verify the quantity of
work performed. Also, documentation was not provided to demonstrate that
various required field tests and inspections were performed, and that the quality of
work performed and materials used met specifications.




Exhibit C. Analysis of Payments Deemed Improper
                                                                               27

City of Houston, Texas - $152,521
Neither the City nor FAA officials could explain why the City drew-down funds
for $152,521 only to return the funds on a subsequent draw-down. The OIG
contacted the City of Houston about this drawdown on April 14, 2009. The issue
was discussed with the ADO on May 27, 2009. The issue was also discussed and
documentation was provided to FAA Airports representatives on June 11, 2009.
However, no documentation was provided to demonstrate that this payment was
proper.

City of Houston, Texas - $53,172
This improper payment amount of $53,172 is based on a lack of documentation for
improvements at the Ellington Field.         In February 2009, we requested
documentation for a $335,061 payment. After three months, we received support
for $281,889. It was not until May, 12, 2009 that the City of Houston provided an
explanation for the remaining $53,172. The City claimed that there were
significant overages that could be used to support this amount. However, the
documentation provided by this grantee identified work that was performed at
another airport, William P. Hobby Airport. Documents supporting our conclusion
were provided and discussed with the ADO on May 27, 2009 and FAA Airports
representatives on June 11, 2009. In its response, FAA states that the payment
amount is proper based on a preliminary review. The OIG disagrees with FAA's
preliminary conclusion when a grantee provides support for work at an airport not
identified in the grant agreement.

Panama City- Bay County Airport and Industrial District, Florida -
$2,508,905
The $2,508,905 is comprised of two improper payment amounts ($387,934 and
$2,120,971) that resulted from a referral by the Florida Department of
Transportation, Office of Inspector General. The $387,934 payment amount is
improper based on a lack of documentation. The $2,120,971 improper payment
occurred because the grantee received AIP funds for tasks not approved in the
initial grant agreement. We discussed these issues with Orlando ADO officials on
meetings held on February 23, 2010, March 5, 2010 and March 11, 2010. We
asked the ADO to obtain supporting documentation for the $387,934. In the
March 11, 2010 meeting, ADO Manager stated that the documentation was not
available and it is unlikely that the grantee could provide it. Also, the ADO
acknowledged that this grantee received payments of $2,120,971 for tasks not
approved in the initial grant agreement. On February 19, 2010, the ADO modified
the grant agreement to replace the tasks initially outlined in the original grant
agreement with the other AIP eligible task work items that the grantee had already
received payments for. Also, ineligible items that the grantee received payment
for were replaced with other AIP eligible work. We determined that $2,120,971 is



Exhibit C. Analysis of Payments Deemed Improper
                                                                           28

improper under AIP grant #35 as an ineligible service because the costs billed
were clearly not approved under the initial grant agreement.




Exhibit C. Analysis of Payments Deemed Improper
                                                                29



EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT



Name                                 Title___________________

Earl Hedges                          Program Director

Mark Rielly                          Project Manager

Brian Frist                          Senior Analyst

Marguerite Nealon                    Senior Auditor

Lakarla Lindsay                      Senior Auditor

Stephen Berkeridge                   Auditor

Allison Sturges                      Analyst

Gina Sammons                         Auditor

Petra Swartzlander                   Senior Statistician

Karen Sloan                          Communications Officer

Aron Wedekind                        Engineer

Amy Berks                            Senior Counsel

Terrence Letko                       Program Director

Susan Neill                          Writer-Editor




Exhibit D. Major Contributors to this Report
                            30

APPENDIX. AGENCY COMMENTS




Appendix. Agency Comments
                            31




Appendix. Agency Comments
                            32




Appendix. Agency Comments
                            33




Appendix. Agency Comments
                            34




Appendix. Agency Comments
                            35




Appendix. Agency Comments
